                    U.S. DEPARTMENT OF THE INTERIOR
                       OFFICE OF INSPECTOR GENERAL

                                      AUDIT REPORT




          THE NATIONAL PARK SERVICE’S
        RECORDING OF FACILITY MAINTENANCE
                  EXPENDITURES




No. C-IN-NPS-0013-2004                     January 2005
             AUDIT OF THE NATIONAL PARK SERVICE’S
        RECORDING OF FACILITY MAINTENANCE EXPENDITURES

                                 EXECUTIVE SUMMARY

WHY WE DID THIS               WHAT WE FOUND
AUDIT                         The National Park Service (NPS) did not accurately capture or
In 1998, the Department       report its facility maintenance costs. Consequently, NPS does
of the Interior’s Planning,   not know how much was or is being spent on facility
Design, and Construction      maintenance activities. For fiscal years (FYs) 2001, 2002,
Council reported that it      and 2003, NPS requested and received $341 million more
was difficult, if not         than it recorded as spent on facility maintenance activities.
impossible, to track and
account for facility          Prior to FY 2000, NPS facility operations and maintenance
maintenance expenditures      funds were contained in one account and the funds were used
when facility operations      interchangeably. For FY 2000, NPS began requesting
and facility maintenance      separate funding for facility operations and facility
funds were contained in       maintenance and subsequently provided general guidance
one account. Accordingly,     related to the need to account for the funds separately.
in its FY 2000 budget         However, NPS did not sufficiently emphasize the
request, the National Park    requirement, and the individual parks generally continued to
Service (NPS) separated       use the operations and maintenance funds interchangeably.
facility operations and       Specifically, we found that park officials were generally ill
facility maintenance. The     informed about the need to account for facility maintenance
objective of the audit was    separately, how facility maintenance activities were defined,
to determine if the NPS       and the processes needed to accurately capture the costs.
has been accurately
reporting its facility        We also found that while NPS had the information that
maintenance costs since       indicated facility maintenance costs were not being accurately
establishing the separate     recorded NPS took no discernable action to remedy the
budget categories.            situation.

                              RECOMMENDATIONS
                              We recommend the Assistant Secretary for Fish and Wildlife
                              and Parks ensure that the Director of the National Park
                              Service:

                                  ¾ Require parks to comply with the policy developed by
                                    the NPS Comptroller.
                                  ¾ Disseminate the definitions of facility operations and
                                    facility maintenance to the park level.
                                  ¾ Require parks to provide training to employees on
                                    how to classify work efforts as either facility
                                    operations or facility maintenance.



                                                 i
¾ Require parks to use time input documents to capture
  facility maintenance efforts accurately in the time
  accounting system.
¾ Establish a monitoring process to ensure that facility
  maintenance expenditures are being accurately
  captured and reported.
¾ Hold park managers accountable for ensuring that
  facility maintenance expenditures are reported
  accurately.
¾ Realign the budget request to more closely reflect the
  actual facility operations and facility maintenance
  obligations within the facility operations and
  maintenance sub-activity based on actual
  expenditures.




              ii
                                         TABLE OF CONTENTS
                                                                                                                        PAGE

INTRODUCTION ............................................................................................ 1

         SCOPE AND METHODOLOGY ..............................................................................              2


RESULTS OF AUDIT ...................................................................................... 3

         TIME ACCOUNTING ............................................................................................ 4

         GUIDANCE ......................................................................................................... 5

         MONITORING ..................................................................................................... 6

         REALIGNING THE BUDGET ................................................................................. 6

RECOMMENDATIONS ................................................................................. 7
         NPS RESPONSE AND OIG REPLY ....................................................................... 8


APPENDICES

         1. CLASSIFICATIONS OF PARK UNITS .............................................................. 9

         2. SCOPE AND METHODOLOGY ........................................................................ 11

         3. PERCENT OF FACILITY OPERATIONS AND FACILITY MAINTENANCE
             FUNDS REPORTED AS FACILITY MAINTENANCE EXPENDITURES
             BY PARK UNIT, FISCAL YEAR 2003 .......................................................... 13

         4. RANGE OF TOTAL FACILITY OPERATIONS AND FACILITY
             MAINTENANCE EXPENDITURES, FISCAL YEAR 2003 ................................. 19

         5. NPS’ NOVEMBER 17, 2004 RESPONSE TO THE DRAFT AUDIT REPORT ........ 21

         6. STATUS OF AUDIT REPORT RECOMMENDATIONS ......................................... 23

PHOTO CREDITS ........................................................................................ 25



                                                             iii
This Page Intentionally Left Blank




                iv
                                          INTRODUCTION

ILLUSTRATING THE                        In 1998, the Department of the Interior’s Planning, Design, and
DIFFERENCE BETWEEN                      Construction Council (Interior Council) issued its report
OPERATIONS AND                          “Facilities Maintenance Assessment and Recommendations” and
MAINTENANCE                             the National Research Council (NRC) issued its report
                                        “Stewardship of Federal Facilities – A Proactive Strategy for
                                        Managing the Nation’s Public Assets”. Both studies made
                                        recommendations to improve the facility maintenance process.

                                        The Interior Council and the NRC found that it is difficult, if not
                                        impossible, to track and account for maintenance expenditures
                                        when facility operations and maintenance funds are contained in
                                        one account. The Interior Council and the NRC also concluded
                                        facility maintenance funds that are not appropriately segregated
                                        from operational funds allowed managers to defer maintenance
OPERATIONS
                                        in order to augment operational activities.
Roads operations include
snowplowing at parks which
                                        In that regard, the Department directed the NPS to request
experience significant
                                        separate funding for facility operations and facility maintenance
snowfall, in some places in
                                        starting in its FY 2000 Budget Justification. In its budget
excess of 400 inches.
                                        justification, NPS defined facility operations as those activities
                                        relating to the normal performance of the functions for which the
                                        facility or equipment is used. Facility maintenance was defined
                                        as the upkeep of facilities, structures, and equipment necessary
                                        to realize the originally anticipated useful life of a fixed asset.

                                        In order to prepare its FY 2000 budget, NPS surveyed selected
                                        park units1 to estimate its facility operations and facility
                                        maintenance budget requirements. Based on this survey, NPS
                                        decided to split the funding 50/50 between facility operations
                                        and facility maintenance within the operations and maintenance
MAINTENANCE
                                        sub-activity. After the first year, NPS intended to use data from
Roads maintenance includes
                                        the accounting system to adjust the budget requests for each
activities such as grading
                                        area. To date, NPS has not adjusted the 50/50 split to reflect
roads, asphalt overlays,
                                        actual expenditures.
patching potholes, and filling
cracks.
                                        NPS’ official accounting records show that between FYs 2001
                                        and 2003 NPS requested and received $341 million more than it
                                        recorded spending for facility maintenance activities. OMB
                                        noted this discrepancy and expressed concern that NPS might be
                                        using facility maintenance money for other purposes.


1
  Appendix 1 is a list of the types of areas and facilities under NPS’ jurisdiction. In this report we refer to
these as park units.


                                                       1
              Based on our analysis of NPS’ facility maintenance and facility
SCOPE AND     operations expenditures for FY 2003, we selected park units for
METHODOLOGY   site visits. At those locations, we reviewed the processes and
              procedures used to record and report facility maintenance costs.
              To accomplish this, we reviewed documents used to request and
              record work efforts, including:

                 ¾ Work orders

                 ¾ Employee time sheets

                 ¾ Maintenance management reports

                 ¾ Accounting and payroll records

                 ¾ Budget documents

              We limited our testing to labor costs which comprised more than
              75 percent of total facility maintenance and operation
              expenditures at the park units we visited. We also performed
              fieldwork at the NPS Intermountain Region, the NPS
              headquarters, the Department, and the Office of Management
              and Budget (OMB).

              Our audit included an examination of prior audit reports,
              Government Performance and Results Act goals, OMB
              initiatives, and NPS budget and accounting processes. We
              evaluated the various best practices recommendations made by
              the National Research Council and the Interior Council. We did
              not find prior audit coverage related to our specific objective.
              Also, there were no performance goals that were specifically
              related to our objective.

              We conducted our audit in accordance with the Government
              Auditing Standards issued by the Comptroller General of the
              United States. (See Appendix 2 for more details on scope and
              methodology and a list of sites visited.)




                         2
                                     RESULTS OF AUDIT
                                  We concluded that NPS did not accurately report its facility
                                  maintenance expenditures. There was little or no relationship
                                  between the facility maintenance work being done and labor costs
                                  being charged to facility maintenance. Consequently, it was not
                                  possible to determine how much was, or currently is, spent on facility
                                  maintenance efforts. NPS reported that it spent $341 million less on
                                  facility maintenance than was provided for FYs 2001 through 2003.

                                                            Fiscal Years 2001 – 2003

                                               Enacted                      Expended             Difference
                                   Facility
                                   Operations  $ 556,496,000                $ 824,505,000        ($268,009,000)
                                   Facility
                                   Maintenance $ 689,324,000                $ 348,401,000         $340,923,000
                                   Total       $1,245,820,000               $1,172,906,000        $ 72,914,000

                                  Our initial analysis showed wide disparities in the ratio between
                                  facility operations and facility maintenance expenditures reported by
                                  the various park units2. For example,

                                      ¾ 125 park units reported total facility operations expenditures
                                        of $85,100,201 but reported no facility maintenance
                                        expenditures.

                                      ¾ Conversely, 21 park units reported total facility maintenance
                                        expenditures of $10,310,383 but reported no facility
                                        operations expenditures.

                                  The failure to accurately capture facility maintenance expenditures
                                  has resulted in a perception that funds intended for maintenance were
                                  used for other purposes. However, we believe the problem is one of
                                  inaccurate data collection or recording rather than non-performance
                                  of maintenance.

                                  We identified four specific areas where NPS needs to make
                                  significant improvements so it can accurately report facility
                                  maintenance efforts. These areas are:


2
  See Appendix 3 for a listing of the percentages of facility operations and maintenance funds reported as
facility maintenance by park unit for FY 2003 and Appendix 4 for the range of total facility operations and
maintenance expenditures for FY 2003.



                                                     3
                      ¾ Accounting for time

                      ¾ Providing guidance

                      ¾ Monitoring facility maintenance reporting

                      ¾ Realigning the budget

                  NPS did not accurately capture and report the time employees spent
TIME ACCOUNTING   on facility maintenance. This is important because, at the park units
                  we visited, labor costs made up more than 75 percent of the total
                  facility maintenance costs.

                  The principle reason
                  for the inaccuracy is
                  the long-standing
                  practice at the park
                  units of assigning a
                  particular facility
                  operations or facility
                  maintenance
                  accounting code to
                  each specific function
                  within the park.         Road repairs at Glacier National Park.

                  NPS has close to 100 accounting codes, called primary work
                  elements (PWEs), to account for its employees’ facility operations
                  and facility maintenance work efforts. For example, there are
                  accounting codes for:

                      ¾ Facility Operations – buildings

                      ¾ Facility Operations – trails

                      ¾ Facility Maintenance – buildings

                      ¾ Facility Maintenance – trails

                  Park units have generally selected and assigned a single PWE for use
                  by an entire function. Every employee within that function charges
                  all of their hours to that PWE for the entire fiscal year no matter what
                  tasks they actually accomplish. This practice of pre-assigning PWEs
                  has resulted in inaccurate data. In a June 20, 2003 memorandum, the
                  NPS Comptroller advised against using this practice. This advice
                  was reiterated by the NPS Comptroller in an August 15, 2003
                  memorandum.



                                  4
                    Despite the memoranda, data remained inaccurate in FY 2004. We
                    examined work orders, work sheets, or other forms used to assign
                    and document work. We found little or no correlation to the data
                    reported in the accounting system and the work being performed.
                    For example:

                       ¾ As of April 2004, one park unit had charged 100 percent of
                         its FY 2004 facility operations and maintenance labor efforts
                         to operations accounting codes. Conversely, in FY 2003 the
                         same park unit had charged all of its facility operations and
                         maintenance labor efforts to maintenance accounting codes.
                         Our tests of current activity showed that maintenance is being
                         performed and should be captured against maintenance
                         accounting codes. We concluded the park unit’s decision to
                         charge all operations and maintenance efforts to one category
                         of accounting codes was arbitrary.
MAINTENANCE
A marine mechanic      ¾ At another park unit, a maintenance crew of three completed
repairs a vessel.        a specific maintenance task. Each employee recorded the
                         same amount of time for performing this task. Two of the
                         three employees recorded their time against maintenance
                         accounting codes, the remaining employee recorded his time
                         against an operations accounting code. This happened
                         because these accounting codes were preassigned to each
                         employee on an annual basis.

                    We found similar practices at eight of the nine park units we visited
                    or contacted, indicating that data reported in NPS’ accounting system
                    was not based on the actual work performed.

                    Some park units can accurately capture facility maintenance work
                    effort using the Facility Management Software System (FMSS).
                    However, FMSS does not interface with the existing payroll system
                    and is not yet implemented at all of the park units. NPS can
                    accurately capture facility maintenance work effort without waiting
                    for FMSS to be fully implemented or interfaced. This can be
                    accomplished through the use of time input documents, which
                    capture each work effort that an employee performs.

                    NPS has not adequately emphasized the need to accurately record
GUIDANCE            facility maintenance efforts. We found that park officials were
                    generally ill informed about the need to separately account for
                    facility operations and maintenance. For example,

                       ¾ A manager at one park asked why it was important to
                         distinguish facility operations and maintenance and who used
                         the information.


                                   5
                           ¾ The managers at two additional park units stated that they
                             were not aware of the need to account for facility operations
                             and maintenance separately.

                       Furthermore, NPS has not adequately communicated the difference
                       between facility operations and facility maintenance work efforts. At
                       the park level, we found that there was some confusion as to which
                       work efforts should be defined as facility operations and which
                       efforts should be facility maintenance. Park officials generally
                       expressed frustration with the lack of clear guidance concerning
                       these definitions.

                       It is critical that park officials understand and apply the definitions to
OPERATIONS             achieve accurate facility maintenance reporting. The definitions
A maintenance worker   provide the link to the PWE necessary to accurately capture the work
performs roadside      effort in the accounting system.
vegetation removal.
                       Accordingly, in order to improve park officials’ understanding of the
                       need for and the ability to separately account for facility operations
                       and maintenance, NPS needs to:

                           ¾ Reinforce its policy regarding separately accounting for
                             facility operations and maintenance.

                           ¾ Disseminate the definitions and provide training to
                             employees on how these definitions relate to individual tasks
                             at the parks.

                       However, reinforcing policy and providing training alone will not
                       solve the problem.

                       The facility maintenance expenditures reported over the past several
MONITORING
                       years clearly show that there was a huge disconnect between what
                       was asked for and what was reported as being spent. Furthermore,
                       the facility maintenance expenditures reported on a park-unit by
                       park-unit basis were illogical. NPS had this information but took no
                       effective action. If NPS wants to ensure accurate reporting, it must
                       monitor what is happening at the park units. Further, NPS must take
                       appropriate action if a park unit fails to properly account for its
                       facility maintenance efforts.

                       Prior to FY 2000, there was no distinction in NPS’ budget requests
REALIGNING THE         between facility operations and facility maintenance funds. In its FY
BUDGET                 2000 budget request, NPS split facility operations and facility
                       maintenance into two areas. The amounts requested for each area
                       were estimated based on limited information. NPS intended to adjust


                                        6
                  subsequent budget requests once actual costs became available. The
                  NPS has not yet realigned its budget request for facility maintenance
                  funds based on data from its accounting system. However, at this
                  point, any adjustment to the budget request would be premature due
                  to NPS' inaccurate accounting for facility maintenance efforts. We
                  believe that NPS must have one fiscal year of accurate information
                  about its facility maintenance obligations before attempting to
                  realign the budget.

                  We recommend the Assistant Secretary for Fish and Wildlife and
RECOMMENDATIONS   Parks require that the Director, National Park Service:

                     1. Direct the park units to comply with the policy developed by
                        the Comptroller to accurately account for individual work
                        efforts.

                     2. Disseminate the definitions of facility operations and facility
                        maintenance in the NPS Budget Justifications to all NPS
                        facility maintenance divisions and related financial program
                        staff to facilitate greater understanding of the terms and how
                        they should be used.

                     3. Require park units to use time input documents to capture
                        facility maintenance efforts accurately in the time accounting
                        system. Employees’ time must be reported against
                        accounting codes that accurately reflect the work effort
                        expended.

                     4. Provide training to employees on how to classify work efforts
                        as either facility operations or facility maintenance. Also,
                        provide training to employees on how to select the
                        appropriate accounting code for their time input documents
                        based on these classifications.

                     5. Establish a monitoring process to ensure that facility
                        maintenance expenditures are being accurately captured and
                        reported. For example, require the regions to conduct
                        periodic comparisons of park facility maintenance
                        expenditures against park facility maintenance work efforts
                        and against budget planning documents and request
                        explanations for discrepancies.

                     6. Hold park managers accountable for ensuring the accuracy of
                        their reporting including taking action against park managers
                        who fail to properly account for facility maintenance
                        expenditures.



                                  7
                      7. Realign the budget request to more closely reflect the actual
                         facility operations and facility maintenance obligations within
                         the facility operations and maintenance sub-activity. This
                         realignment should not be made until facility operations and
                         facility maintenance obligations have been accurately
                         recorded in the accounting system for at least one fiscal year.

                   In the November 17, 2004 response to the draft report (Appendix 5),
NPS RESPONSE AND   the Comptroller, National Park Service, concurred with the findings
OIG REPLY          and recommendations. NPS stated that it would take immediate
                   steps to implement Recommendations 1, 2, 3, 4, 5, and 6. NPS plans
                   to implement Recommendation 7 once all other recommendations
                   have been completed and if the expenditure reporting shows
                   significant improvement in accuracy. Then, NPS will propose to the
                   Department of the Interior, the Office of Management and Budget,
                   and the Appropriations Committees of the Congress that the FY
                   2007 NPS Budget Request in February 2006 be aligned to reflect the
                   more accurate maintenance financial information (Appendix 5).
                   Appendix 6 shows the status of the audit recommendations.




                                  8
                                                                                Appendix 1

                     CLASSIFICATIONS OF PARK UNITS
In addition to parks, the National Park Service has other areas and facilities under its
jurisdiction. A list of these types of areas and facilities with their acronyms follows. For
this report we have referred to all these areas and facilities as park units.

                 Battlefield                                BTLFD
                 Memorial                                   MEM
                 National Battlefield                       NB
                 National Battlefield Park                  NBP
                 National Historic Park                     NHP
                 National Historic Site                     NHS
                 National Historic Trail                    NHT
                 National Lakeshore                         NL
                 National Monument                          NM
                 National Memorial                          NMEM
                 National Military Park                     NMP
                 National Park                              NP
                 National Preserve                          NPRES
                 National River                             NR
                 National Recreation Area                   NRA
                 National River & Recreation Area           NR&RA or NRRA
                 National Seashore                          NS
                 National Scenic Riverway                   NSR
                 National Scenic Trail                      NST
                 Parkway                                    PKWY
                 Preserve                                   PRES
                 Scenic & Recreational River                SRR
                 Wild & Scenic River                        WSR




                                             9
This Page Intentionally Left Blank




               10
                                                                               Appendix 2

                         SCOPE AND METHODOLOGY
Our audit was conducted at the Office of Management and Budget and the National Park
Service (NPS) budget and accounting offices, Intermountain Region, and the following
park units:

       •   Gateway National Recreation Area (NY, NJ)
       •   Yosemite National Park (CA)
       •   Rocky Mountain National Park, (CO)
       •   Indiana Dunes National Lakeshore (IN)
       •   The Great Smoky Mountains National Park (TN and NC)
       •   Santa Monica Mountains National Recreation Area (CA)
       •   Sleeping Bear Dunes National Lakeshore (MI)

We also contacted NPS’ Northeast, Southeast, and Midwest Regional offices, as well as
Grand Canyon National Park and Bandelier National Monument. We reviewed the
processes and procedures used to record and report facility maintenance costs. We
reviewed work orders, if available; other documents used to request work; time sheets;
Facility Management Software System (FMSS) documents; and other documents related
to the recording and reporting of facility maintenance costs. We also analyzed facility
operations and facility maintenance expenditures, which were downloaded from the
official accounting records. Our analysis identified the percentage of facility
maintenance reported by each park under the facility operations and maintenance sub-
activity. We stratified the park units, and selected park units based on the percent of
facility maintenance reported at the low, middle, and high ranges of the stratification.

Our scope included park units selected based on their FY 2003 reported facility
operations and facility maintenance expenditures. Our actual tests of transactions in the
park units were selected from the most recent accounting data available in FY 2004.

We conducted our audit in accordance with the Government Auditing Standards issued
by the Comptroller General of the United States. Accordingly, we included such tests of
records and other auditing procedures as we considered necessary under the
circumstances.




                                            11
This Page Intentionally Left Blank




               12
                                                            Appendix 3

    PERCENT OF FACILITY OPERATIONS AND FACILITY
MAINTENANCE FUNDS REPORTED AS FACILITY MAINTENANCE
            EXPENDITURES BY PARK UNIT
                 FISCAL YEAR 2003

PARK UNIT                    %        PARK UNIT                     %
DENALI NP                    0        SAGAMORE HILL NHS             0
GATES OF THE ARCTIC NP AND            SAINT CROIX ISLAND INTL HS    0
PRES                         0        SAINT PAUL'S CHURCH           0
KATMAI NP AND PRES.          0        SALEM MARITIME NHS            0
LAKE CLARK NP AND PRES.      0        SARATOGA NHP                  0
SITKA NP                     0        SAUGUS IRON WORKS NHS         0
WRANGELL - ST ELIAS NP AND            THADDEUS KOSCIUSZKO NMEM      0
PRES.                        0        THEO ROOSEVELT BIRTHPLACE
YUKON - CHARLEY RIVERS NP             NHS                            0
AND PRES                     0        THOMAS STONE NHS               0
BOOKER T WASHINGTON NM       0        VALLEY FORGE NHP               0
CASTLE CLINTON NM            0        VANDERBILT MANSION NHS         0
EDGAR ALLAN POE NHS          0        WOMEN'S RIGHTS NHP             0
EDISON NHS                   0        ARKANSAS POST NMEM             0
EISENHOWER NHS               0        ANACOSTIA PARK                 0
ELEANOR ROOSEVELT NHS        0        ANTIETAM NB                    0
FEDERAL HALL NMEM            0        ARLINGTON HSE/ THE ROBT E
FIRE ISLAND NS               0        LEE MEM                        0
FREDERICK LAW OLMSTED NHS    0        CHESAPEAKE AND OHIO CANAL
GATE-JAMAICA BAY DISTRICT    0        NHP                            0
GATE-SANDY HOOK UNIT         0        CLARA BARTON NHS               0
GATE-STATEN ISLAND UNIT      0        FORD'S THEATRE NHS             0
GAULEY RIVER NRA             0        GLEN ECHO NP                   0
GENERAL GRANT NMEM           0        GREAT FALLS PARK VIRGINIA      0
GEORGE WASHINGTON                     HARPERS FERRY NHP              0
BIRTHPLACE NM                0        MANASSAS NBP                   0
GETTYSBURG NMP               0        MONOCACY NB                    0
GLORIA DEI CHURCH NHS        0        NATIONAL CAPITAL PARKS
HAMILTON GRANGE NMEM         0        CENTRAL                        0
HOME OF FRANKLIN D                    ROCK CREEK PARK                0
ROOSEVELT NHS                0        AZTEC RUINS NM                 0
HOPEWELL FURNACE NHS         0        CEDAR BREAKS NM                0
JOHN F KENNEDY NHS           0        EL MALPAIS NM                  0
LONGFELLOW NHS               0        EL MORRO NM                    0
MAGGIE L WALKER NHS          0        FORT BOWIE NHS                 0
MINUTE MAN NHP               0        FOSSIL BUTTE NM                0
MORRISTOWN NHP               0        HUBBELL TRADING POST NHS       0
NEW BEDFORD WHALING NHP      0        JOHN D ROCKEFELLER JR MEM
ROGER WILLIAMS NMEM          0        PKWY                           0


                                 13
    PERCENT OF FACILITY OPERATIONS AND FACILITY
MAINTENANCE FUNDS REPORTED AS FACILITY MAINTENANCE
            EXPENDITURES BY PARK UNIT
                 FISCAL YEAR 2003
PARK UNIT                  %        PARK UNIT                    %
MONTEZUMA CASTLE NM        0        PRESIDIO OF SAN FRANCISCO    0
NATURAL BRIDGES NM         0        PU'UHONUA O HONAUNAU NP      0
PECOS NHP                  0        PUUKOHOLA HEIAU NHS          0
RAINBOW BRIDGE NM          0        SAN JUAN ISLAND NHP          0
RIO GRANDE WSR             0        U S S ARIZONA MEMORIAL       0
SAND CREEK MASSACRE NHS    0        WAR IN THE PACIFIC NHP       0
WASHITA BATTLEFIELD NHS    0        WHISKEY TOWN NRA             0
CHARLES PINCKNEY NHS       0        RICHMOND NBP                 1
FORT RALEIGH NHS           0        UPPER DELAWARE SRR           1
MOORES CREEK NB            0        FREDERICK DOUGLASS HOME      1
OBED WSR                   0        CHAMIZAL NATIONAL MEMORIAL   1
TUSKEGEE AIRMEN NHS        0        LITTLE BIGHORN BATTLEFIELD
WRIGHT BROTHERS NMEM       0        NM                           1
BUCK ISLAND REEF NM        0        SALINAS PUEBLO MISSIONS NM   1
AMERICAN MEMORIAL NP       0        BOSTON AFRICAN-AMERICAN
CABRILLO NM                0        NHS                          2
CRATER LAKE NP             0        STATUE OF LIBERTY NM         2
CRATERS OF THE MOON NM     0        DEVILS TOWER NM              2
DEATH VALLEY NP            0        SAN ANTONIO MISSIONS NHP     2
EUGENE O'NEILL NHS         0        WHITMAN MISSION NHS          2
FORT POINT NHS             0        BIG THICKET N PRES           3
GOLDEN GATE NRA            0        BISCAYNE NP                  3
GREAT BASIN NP             0        HAWAII VOLCANOES NP          3
HAGERMAN FOSSIL BEDS NM    0        LASSEN VOLCANIC NP           3
JOHN DAY FOSSIL BEDS NM    0        SAINT-GAUDENS NHS            4
JOHN MUIR NHS              0        BRYCE CANYON NP              4
JOSHUA TREE NP             0        CHACO CULTURE NHP            4
KALAUPAPA NHP              0        CORONADO NMEM                4
KALOKO-HONOKOHAU NHP       0        SAN FRANCISCO MARITIME NHP   4
KLONDIKE GOLD RUSH NHP -            JAMES A GARFIELD NHS         5
SEATTLE UNIT               0        CANYON DE CHELLY NM          5
LAKE ROOSEVELT NRA         0        BUFFALO NR                   6
LAVA BEDS NM               0        AMISTAD NRA                  6
MANZANAR NHS               0        LITTLE RIVER CANYON NPRES    6
MUIR WOODS NM              0        TUSKEGEE INSTITUTE NHS       6
NEZ PERCE NHP              0        VIRGIN ISLANDS NP            6
NP OF AMERICAN SAMOA       0        JOHNSTOWN FLOOD NMEM         7
OREGON CAVES NM            0        FORT LARNED NHS              7
PARASHANT NM               0        CARLSBAD CAVERNS NP          7



                               14
    PERCENT OF FACILITY OPERATIONS AND FACILITY
MAINTENANCE FUNDS REPORTED AS FACILITY MAINTENANCE
            EXPENDITURES BY PARK UNIT
                 FISCAL YEAR 2003
PARK UNIT                    %         PARK UNIT                   %
APPOMATTOX COURT HOUSE                 BIG CYPRESS NPRES           16
NHP                          8         BLUE RIDGE PKWY             16
DAYTON AVIATION HERITAGE               CHANNEL ISLANDS             16
NHP                           8        MOUNT RAINIER NP            16
HORSESHOE BEND NMP            8        MARTIN VAN BUREN NHS        17
AGATE FOSSIL BEDS NM          9        LEWIS & CLARK NHT           17
PEA RIDGE NMP                 9        FLORISSANT FOSSIL BEDS NM   18
BENT'S OLD FORT NHS           9        PETROGLYPH NM               18
CANYONLAND NP                 9        SEQUOIA AND KINGS CANYON
DINOSAUR NM                   9        NP                          18
ORGAN PIPE CACTUS NM          9        ARCHES NP                   19
ZION NP                       9        CAPITOL REEF NP             19
KENNESAW MOUNTAIN NBP         9        CHIRICAHUA NM               19
CANAVERAL NS                  9        DE SOTO NMEM                20
GRAND PORTAGE NM             10        KEWEENAW NHP                21
SCOTTS BLUFF NM              10        OZARK NSR                   21
DRY TORTUGAS NP              10        MESA VERDE NP               21
SAINT CROIX NSR              11        CHRISTIANSTED NHS           21
APOSTLE ISLANDS NL           12        HOMESTEAD NM OF AMERICA     22
HARRY S TRUMAN NHS           12        WILLIAM HOWARD TAFT NHS     22
PRICE WILLIAM FOREST PARK    12        FORT DAVIS NHS              22
HOPEWELL CULTURE NHP         13        PETERSBURG NB               23
JEFFERSON NATL EXPANSION               CONGAREE SWAMP NM           23
MEM NHS                      13        EVERGLADES NP               24
CHATTAHOOCHEE RIVER NRA      13        NATCHEZ TRACE PKWY          24
YOSEMITE NP                  13        NINETY SIX NHS              24
CUYAHOGA VALLEY NRA          14        EFFIGY MOUNDS NM            25
GEORGE WASHINGTON CARVER               BIG BEND NP                 25
NM                           14        FORT UNION NM               25
NICODEMUS NHS                14        LAKE MEREDITH NRA           25
ULYSSES S GRANT NHS          14        JIMMY CARTER NHS            25
ROCKYMOUNTAIN NP             14        RUSSELL CAVE NM             25
KNIFE RIVER INDIAN VILLAGE             VICKSBURG NMP               25
NHS                          15        OLYMPIC NP                  25
TALLGRASS PRAIRIE NPRES      15        MINUTEMAN MISSILE NHS       26
LAKE MEAD NRA                15        VOYAGEURS NP                26
THEODORE ROOSEVELT NP        16        KLONDIKE GOLDRUSH NHP       27
CUMBERLAND ISLAND NS         16        BROWN V BOARD OF
SAN JUAN NHS                 16        EDUCATION NHS               27



                                  15
    PERCENT OF FACILITY OPERATIONS AND FACILITY
MAINTENANCE FUNDS REPORTED AS FACILITY MAINTENANCE
            EXPENDITURES BY PARK UNIT
                 FISCAL YEAR 2003
PARK UNIT                     %         PARK UNIT                    %
FORT STANWIX NM               28        BANDELIER NM                 40
FORT UNION TRADING POST                 PALO ALTO BATTLEFIELD NHS    40
NHS                           28        ALLEGHENY PORTAGE RAILROAD
LITTLE ROCK CENTRAL HIGH                NHS                          41
SCHOOL NHS                    28        FRIENDSHIP HILL NHS          41
YELLOWSTONE NP                28        WOLF TRAP NP FOR THE
CASTILLO DE SAN MARCOS NM     28        PERFORMING ARTS              41
FORT CLATSOP NMEM             28        GREAT SAND DUNES NM          41
INDEPENDENCE NHP              29        GEORGE WASHINGTON MEM
CAPE HATTERAS                 29        PKWY                         42
COWPENS NB                    29        GULF ISLANDS NS              43
GEORGE ROGERS CLARK NHP       30        CAPE COD NS                  44
CHICKASAW NRA                 30        FORT LARAMIE NHS             44
KENAI FJORDS NP               32        TONTO NM                     44
LOWELL NHP                    32        ABRAHAM LINCOLN BIRTHPLACE
MOJAVE NPRES                  32        NHS                          44
WUPATKI NM                    33        DELAWARE WATER GAP NRA       45
FORT SUMTER NM                33        MOUNT RUSHMORE NMEM          45
ANDERSONVILLE NHS             33        COLORADO NM                  45
BOSTON NHP                    34        LYNDON B. JOHNSON NHP        45
FREDERICKSBURG &                        FORT CAROLINE NMEM           45
SPOTSYLVANIA                            CASA GRANDE RUINS NM         46
BTLFD MEM NMP                 34        SAGUARO NP                   46
MARSH-BILLINGS-ROCKEFELLER              HERBERT HOOVER NHS           47
NHP                           34        LINCOLN HOME NHS             47
FORT DONELSON NMP             34        GUADALUPE MOUNTAINS NP       47
KINGS MOUNTAIN NMP            34        GUILFORD COURTHOUSE NMP      47
TIMPANOGOS CAVE NM            35        ASSATEAGUE ISLAND NS         48
FORT PULASKI NM               35        ISLE ROYALE NP               48
FORT SMITH NHS                36        GLEN CANYON NRA              48
GRAND TETON NP                36        CUMBERLAND GAP NHP           48
CAPE LOOKOUT NS               36        NORTH CASCADES NP            48
FORT VANCOUVER NHS            36        COLONIAL NHP                 49
PERRY'S VICTORY & INTNL                 PINNACLES NM                 49
PEACE MEM                     37        BIGHORN CANYON NRA           50
MAMMOTH CAVE NP               37        GRAND CANYON NP              50
CANE RIVER CREOLE NHP         38        FORT FREDERICA NM            50
FORT NECESSITY NB             39        NEW RIVER GORGE NR           52
NATIONAL CAPITAL PARKS EAST   39        INDIANA DUNES NL             52



                                   16
    PERCENT OF FACILITY OPERATIONS AND FACILITY
MAINTENANCE FUNDS REPORTED AS FACILITY MAINTENANCE
            EXPENDITURES BY PARK UNIT
                 FISCAL YEAR 2003
PARK UNIT                   %         PARK UNIT                   %
WILSON'S CREEK NB           52        FORT SCOTT NHS              81
STEAMTOWN NHS               53        HAMPTON NHS                 83
HOT SPRINGS NP              53        GLACIER BAY NP AND PRES     84
THE GREAT SMOKY MOUNTAINS             NATCHEZ NHT                 84
NP                          53        HALEAKALA NP                84
POINT REYES NS              54        STONES RIVER NB             87
CURECANTI NRA               55        PICTURED ROCKS NL           88
CARL SANDBURG HOME NHS      55        PISCATAWAY PARK             89
WIND CAVE NP                58        CAPULIN VOLCANO NM          89
JEAN LAFITTE NHP            59        SANTA MONICA MOUNTAINS
GLACIER NP                  62        NRA                          90
PIPE SPRING NM              62        MARTIN LUTHER KING JR NHS    92
WHITE SANDS NM              62        PIPESTONE NM                 94
REDWOOD NP                  62        LINCOLN BOYHOOD NMEM         95
NATIONAL TRAILS SYSTEM,               ADAMS NHP                    97
SANTA FE                    63        GOLDEN SPIKE NHS             98
TUMACACORI NHP              63        SHILOH NMP                   98
CHICKAMAUGA AND                       WEIR FARM NHS               100
CHATTANOOGA NMP             63        FIRST LADIES NATIONAL
GRANT-KOHRS RANCH NHS       66        HISTORIC SITE               100
JEWEL CAVE NM               67        ICE AGE NST                 100
BIG SOUTH FORK NRRA         67        MISSISSIPPI NR&RA           100
FORT MCHENRY NM & HIST                NIOBRARA/MISSOURI NR        100
SHRINE                      68        NORTH COUNTRY NT            100
WESTERN ARCTIC NATIONAL               SLEEPING BEAR DUNES NL      100
PARKLANDS                   69        BLACK CANYON OF THE
PADRE ISLAND NS             71        GUNNISON NP                 100
PETRIFIED FOREST NP         72        GILA CLIFF DWELLINGS NM     100
ACADIA NP                   74        NAVAJO NM                   100
SHENANDOAH NP               75        NEW ORLEANS JAZZ NHP        100
SPRINGFIELD ARMORY NHS      75        ANDREW JOHNSON NHS          100
BADLANDS NP                 76        APPALACHIAN NST             100
OCMULGEE NM                 78        PACIFIC GREAT BASIN SO      100
CATOCTIN MOUNTAIN PARK      79




                                 17
This Page Intentionally Left Blank




               18
                                                                     Appendix 4

            RANGE OF TOTAL FACILITY OPERATIONS
          AND FACILITY MAINTENANCE EXPENDITURES
                     FISCAL YEAR 2003
PERCENTAGE                                                      TOTAL FACILITY
  FACILITY        NO. OF                                        OPERATIONS AND
MAINTENANCE    PARK UNITS     TOTAL FACILITY   TOTAL FACILITY      FACILITY
 REPORTED      REPORTING       OPERATIONS       MAINTENANCE      MAINTENANCE
  (RANGE)       IN RANGE      EXPENDITURES     EXPENDITURES      EXPENDITURES
           0           125      $85,099,815      $        386     $ 85,100,201
        1-20             79     $82,799,983      $ 10,306,889     $ 93,106,872
       21-40             60     $56,700,053      $ 24,001,393     $ 80,701,446
       41-60             42     $34,107,873      $ 32,373,615     $ 66,481,488
       61-80             22     $ 9,906,116      $ 20,604,519     $ 30,510,635
       81-99             18     $ 1,615,988      $ 23,462,561     $ 25,078,549
         100             21     $          0     $ 10,310,383     $ 10,310,383
    TOTALS             367     $270,229,828      $121,059,746     $391,289,574




                                      19
This Page Intentionally Left Blank




               20
     Appendix 5




21
This Page Intentionally Left Blank




               22
                                                                           Appendix 6



      STATUS OF AUDIT REPORT RECOMMENDATIONS
Recommendations             Status                    Action Required

1, 2, 3, 4, 5, 6, & 7   Resolved; not        No further response to the Office of
                        implemented.         Inspector General is required. The
                                             recommendations will be referred to
                                             the Department’s Focus Leader for
                                             Management Accountability and
                                             Audit Follow-up for tracking of
                                             implementation.




                                        23
This Page Intentionally Left Blank




               24
PHOTOS COURTESY OF THE NATIONAL PARK SERVICE

COVER

VICKSBURG VISITOR CENTER, NATIONAL MILITARY PARK,
http://www.nps.gov/vick/visctr/vc.htm

MABRY MILL, BLUE RIDGE PARKWAY,
http://www.nps.gov/blri/galry03b.htm

ZION NATIONAL PARK VISITOR CENTER, UTAH,
http://www.nps.gov/dsc/b_what/b_5_za_zion.htm


GLACIER NATIONAL PARK PHOTO GALLERY

IN ORDER OF APPEARANCE:

GOING-TO-THE-SUN ROAD, PLOWING PHOTOS AND VIDEOS APPROXIMATELY 1
MILE BELOW LOGAN PASS, JUNE 21, 2002,
http://www.nps.gov/glac/gallery/plow2002_621.htm

GOING-TO-THE-SUN ROAD, NEAR BIRD WOMAN FALLS OVERLOOK AND BIG
BEND, MAY 3, 2001, http://www.nps.gov/glac/gallery/050301.htm

ROAD REPAIRS AT THE LOOP, NOVEMBER 3, 2000,
http://www.nps.gov/glac/gallery/110300.htm


VIRGIN ISLANDS NATIONAL PARK BUSINESS PLAN
OCTOBER 2, 2001, http://www.nps.gov/viis/plan/plan/natlpark.pdf

A MARINE MECHANIC REPAIRS A VESSEL

A MAINTENANCE WORKER PERFORMING ROADSIDE VEGETATION REMOVAL




                                    25
This Page Intentionally Left Blank




               26
27
